POS-030

 

JATTORNEY OR PARTY WITHOUT ATTORNEY (Name, State Bar number, and address)
JEFFREY G. THOMAS CA SBN 83076 FOR COURT USE ONLY

201 WILSHIRE BLVD. SECOND FLOOR
SANTA MONICA, CALIFORNIA 90401

TELEPHONE NO: 310-650-8326 FAX NO. (Optiona’ None
E-MAIL ADDRESS (Optional): jgthomas128@gmail.com
ATTORNEY FOR (Name): True Harmony, 1130 South Hope Street Inv. Assoc. LLC et al.
Supreme Court of U.S.
‘STREET ADDRESS: One First Street
MAILING ADDRESS:
CITY AND ziP code: Washington, D.C. 20543
BRANCH NAME
PETITIONER/PLAINTIFF: TRUE HARMONY et al
RESPONDENT/DEFENDANT: STATE OF CALIFORNIA DEPARTMENT OF JUSTICE et al

 

 

E NUMBER:
PROOF OF SERVICE BY FIRST-CLASS MAIL—CIVIL a

(Do not use this Proof of Service to show service of a Summons and Complaint.)

 

 

 

 

1. | am over 18 years of age and not a party to this action. | am a resident of or employed in the county where the mailing
took place.

2. My residence or business address is:
5812 Washington Blvd. Culver City, California 90232

3. On (date): December 18 & 19, 2020 | mailed from (city and state): 2s Angeles, California

the following documents (specify):
Petition for Writ of Certiorari

 

The documents are listed in the Attachment to Proof of Service by First-Class Mail—Civil (Documents Served)
(form POS-030(D)).
4. | served the documents by enclosing them in an envelope and (check ane)
a. [__] depositing the sealed envelope with the United States Postal Service with the postage fully prepaid.
b. [><] placing the envelope for collection and mailing following our ordinary business practices. | am readily familiar with this

business's practice for collecting and processing correspondence for mailing. On the same day that correspondence is
placed for collection and mailing, it is deposited in the ordina-y course of business with the United States Postal Service in

a sealed envelope with postage fully prepaid.

 

 

 

 

 

 

 

5. The envelope was addressed and mailed as follows:
a. Name of person served:
b. Address of person served:

 

_] The name and address of each person to whom | mailed the documents is listed in the Attachment to Proof of Service
by First-Class Mail—Civil (Persons Served) (POS-030(P)).

 

 

 

| declare under penalty of perjury under the laws of the State of California that the foreaoi g is true and correct.

Date: December 19, 2020 i (

Behnam (Daniel) Rafalian » Z Lo

(TYPE OR PRINT NAME OF PERSON COMPLET .NG THIS FORM) ATURE OF PERSON COM ee THIS FORM)

 

Form Approved for Optional Use PROOF OF SERVICE BY FIRST-CLASS MAIL—CIVIL G of Civil Procedure, §§ 1013, 1013a
Judicial Counc of Calfomia : ww courts c3.gov
POS-030 [New January 1, 2005] (Proof of Service)

 
POS-040(P)

 

SHORT TITLE CASE NUMBER
True Harmony et al. v. State Dept. of Justice et al.

ATTACHMENT TO PROOF OF SERVICE—CIVIL (PERSONS SERVED)
(This attachment is for use with form POS-040.)

NAMES, ADDRESSES, AND OTHER APPLICABLE INFORMATION ABOUT PERSONS SERVED:

 

 

 

Name of Person Served Where Served
(If the person served is an attorney, the party or parties (Provide business or residential address where service was made by
represented should also be stated.) personal service, mail, overnight delivery, or messenger service. For

service by fax, provide fax number.)

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

Hugh John Gibson for Norman 9150 Wilshire BI. Suite 241, Beverly Hills CA 90212
Solomon, 7
Hugh John Gibson for "Hope Park Lofts" 9150 Wilshire BI. Suite 241, Beverly Hills CA 90212
Hugh John Gibson for himself 9150 Wilshire BI. suite 241, Beverly Hills CA 90212
Rosario Perry for Rosario Perry 312 Pico Blvd. Santa Monica CA 90405
Paul Malingagio for BIMHF LLC Shepherd Mullin 333 N. Hope, 48th fl. LA CA 90071
Leslie Lopez for State Dept. of Justice Dept. CA. Justice POB 944255 Sacto CA
94244-2550
Hon. John. Kronstadt USDist. Ct. 350 W. First St., Los Angeles, CA 90012
Hugh John Gibson for "1130 Hope St." 9150 Wilshire BI. Suite 241 Beverly Hills CA 90212
Leslie Loez for Xavier Becerra Dept. CA. Justice POB 944255 Sacto CA
94244-2550
Form Approved for Optional Use ATTACHMENT TO PROOF OF SERVICE—CIVIL (PERSONS SERVED) Page___of__
Judicial Counc of Caiforia :
POS-040(P) [Rev. February 1, 2017] (Proof of Service) www.courts.ca.gov

For your protection and privacy, please press the Clear

This Form button after you have printed the form. Print this form | | Save this form Clear this form

LLL
